No. 19-1062
INTHE

~upreme Qtourt of tbe Wniteb ~tateg
CJ CHEILJEDANG CORP., CJ AMERICA, INC., PT.
CHEILJEDANG INDONESIA,
PETITIONERS,
V.

INTERNATIONAL TRADE COMMISSION, AJINOMOTO Co.,
INC., AJINOMOTO ANIMAL NUTRITION
NORTH AMERICA, INC.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT

REPLY BRIEF OF PETITIONERS

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.l(h), I certify that the document contains
3,000 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.l(d).
I declare under penalty of perjury that the foregoing is true and correct.

Executed on June 1, 2020.

Colin C::;~ ogan
Wilson-Epes Printing Co., Inc.

